No. 19-1241
lNTHE

~upreme Qtourt of tbe Wniteb ~tates
NATIONAL AsSOCIATION OF BROADCASTERS, ET AL.,

Petitioners,
V.
PROMETHEUS RADIO PROJECT, ET AL.,

Respondents.
CERTIFICATE OF SERVICE
Pursuant to Rule 29 of the Rules of this Court, I hereby certify that I am a
member in good standing of the bar of this Court and that on this 19th day of August,
2020, all parties required to be served have been electronically served with copies of the
Reply Brief for Petitioners. Pursuant to this Court's April 15, 2020, Order, all parties
have agreed to electronic service in this case.
Jeffrey B. Wall
Acting Solicitor General
U.S. DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, NW
Washington, DC 20530
(202) 514-2217

SupremeCtBriefs@USDOJ.gov
Counsel for the United States and FCC

Ruthanne M. Deutsch
DEUTSCH HUNT, PLLC
300 New Jersey Avenue, NW
Suite 900
Washington, DC 20001
(202) 868-6915
rdeutsch@deutschhunt.com
Counsel for Prometheus Radio Project,
et al.

----------

Dennis Lane

Jack N. Goodman

STINSON LEONARD STREET

LAW OFFICES OF JACKN. GOODMAN

1775 Pennsylvania Avenue, NW
Suite 800
Washington, DC 20006
dennis.lane@stinson.com

1200 New Hampshire Avenue, NW
Suite 600
Washington, DC 20036
(202) 776-2045
jack@jackngoodman.com

Counsel for Multicultural Media,
Telecom and Internet Council and
National Association of Black Owned
Broadcasters, Inc.

Counsel for Independent Television
Group
Andrew Jay Schwartzman
1341 G Street, NW
Fifth Floor
Washington, DC 20005
(202) 241-2408
AndySchwartzman@gmail.com

Counsel for Benton Institute for
Broadband & Society, et al.

2

